HHS/OIG-Audit--"Nationwide Audit of Medicaid Credit Balances, (A-04-92-01023)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nationwide Audit of Medicaid Credit Balances," (A-04-92-01023)
March 31, 1993
Complete
Text of Report is available in PDF format (1.33 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of our Nationwide Audit of Medicaid Credit Balances. Our review of 64 hospitals
in 8 States identified Medicaid credit balances that were not reviewed in a timely manner and resulted in Medicaid overpayments
that should have been returned to the State agency. We estimate that the 64 hospitals had received Medicaid overpayments
totaling $1.79 million, $1.01 million Federal share, which should have been refunded prior to our review. Projecting the
results of our review nationwide, we estimate that hospitals have received and retained $73.3 million, $41.9 million Federal
share in Medicaid overpayments.